IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
No. 2018-2100
DEVONA HOLLINGSWORTH,
Petitioner,
versus
DEPARTMENT OF VETERANS AFFAIRS,
Respondent.

Petition for Review of
the Merit Systems Protection Board in Nos.
AT-4324-17-0315-I-2, AT-4324-18-0091-I-1
JUDGMENT
[Filed: May 17, 2019]
JOSEPH DAVID MAGRI, Merkle & Magri, PA,
Tampa, FL. Argued for petitioner.
KELLY A. KRYSTYNIAK, Commercial Litigation
Branch, Civil Division, United States Department of
Justice, Washington, DC, argued for respondent. Also
represented by JOSEPH H. HUNT, ALLISON KIDDMILLER, ROBERT EDWARD KIRSCHMAN, JR.
_____________________

1a

THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER
CURIAM
(NEWMAN,
WALLACH, Circuit Judges).

LINN,

and

AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
May 17, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

2a

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
ATLANTA REGIONAL OFFICE
DOCKET NUMBERS
AT-4324-18-0091-I-1, AT-4324-17-0315-I-2
DEVONA HOLLINGSWORTH,
Appellant,
v.
SECRETARY, DEPARTMENT OF VETERANS
AFFAIRS,
Agency.

INITIAL DECISION
DATE: May 10 2018
Joseph D. Magri, Esquire, Tampa, Florida, for the
appellant.
Karen L. Mulcahy, Esquire, Bay Pines, Florida, for
the agency.
Kristin Langwell, Esquire, St. Petersburg, Florida, for
the agency.

3a

BEFORE
Christopher G. Sprague Administrative Judge
INITIAL DECISION
On March 3, 2017, the appellant, the Assistant
Chief of Health Information Management Services
(HIMS), GS-0669-12, at the Department of Veterans’
Affairs (VA or agency) Medical Center in Bay Pines,
Florida, filed an appeal claiming that the agency
violated the Uniformed Services Employment and
Reemployment Rights Act of 1994 (codified as
amended at 38 U.S.C. §§ 4301- 4335) (USERRA) when
it: 1) failed to pay her at the GS-13 level for
performing GS-13 work; 2) delayed in approving her
military leave; and 3) created a hostile work
environment. On September 31, 2017, the appellant
filed a second appeal asserting that the VA violated
USERRA when it terminated her during her
probationary period. On December 14, 2017, these two
appeals were joined. MSPB Docket # AT-4324-180091-I-1, Appeal File (AF3), Tab 12. The Board has
jurisdiction over these appeals. 38 U.S.C. § 4324(b)–
(c); Wilson v. Department of Army, 111 M.S.P.R. 54
(2009).1 The hearing the appellant requested was
conducted by video teleconference on April 5–6 & 24,
2018. For the reasons set forth below, the appellant’s
request for corrective action is DENIED.
Background
Except as noted herein, the following facts are not
materially disputed. The appellant is a Master
It is undisputed that the appellant, while preference eligible,
was a probationary employee, and, as such, has no direct Board
appeal rights over her termination. See 5 U.S.C. § 7511(a)(1)(B).
1

4a

Sergeant in the U.S. Air Force (AF) Reserves with a
duty station of Scott AF Base, Illinois, has a Doctorate
in Education with a Specialization of Healthcare, and
was a Health Services Management Supervisor with
the AF from June of 2001 through February of 2016.
AF3, Tab 25, p. 43. The appellant, a preference
eligible, was appointed to the position of HIMS
Assistant Chief, GS-12, on October 2, 2016. That
position was subject to a one- year probationary
period.
The appellant’s initial first-line supervisor was the
HIMS Chief, Ms. Patricia Bowman, and the
appellant’s second-line supervisor was the Chief of the
Business Office, Ms. Dona Griffin-Hall. On November
18, 2016, Ms. Bowman went on extended absence, and
she then resigned from her position on January 24,
2017.
By memorandum dated November 17, 2016, Ms.
Griffin-Hall informed the appellant that she had
concerns about the appellant’s communication; that
she expected the appellant to communicate in a
respectful manner, to comply with guidance as given,
to use legal names, and to seek to understand and
apply VA processes and procedures as directed; and
that, while debate is encouraged, once a decision is
made, she expects the appellant’s full support. AF3,
Tab 11, p. 60– 61.
At the request of Ms. Griffin-Hall, the appellant
was terminated during her probationary period on
July 24, 2017 by the Human Resources (HR) Chief,
Ms. Teryn Savage.

5a

ANALYSIS AND FINDINGS
Under USERRA, the Board has appellate
jurisdiction over appeals of “any person” alleging
discrimination in federal employment because of
military service.2 See 38 U.S.C. §§ 4301–4333; Yates
v. Merit Systems Protection Board, 145 F.3d 1480,
1483 (Fed. Cir. 1998); Machulas v. Department of Air
Force, 109 M.S.P.R. 165 (2008); Petersen v.
Department of Interior, 71 M.S.P.R. 227, 231–40
(1996). Specifically, 38 U.S.C. § 4311(1)(a) provides in
relevant part that a person who has performed service
in a uniformed service shall not be denied any benefit
of employment by an employer on the basis of that
performance of military service. Timberlake v. U.S.
Postal Service, 76 M.S.P.R. 172, 177 (1997).
Additionally, an employer may not discriminate in
employment against or take any adverse employment
action against any person because that person has: (1)
taken an action to enforce a protection afforded any
person under 38 U.S.C. chapter 43, (2) testified or
otherwise made a statement in or in connection
with any proceeding under chapter 43, (3) assisted
or otherwise participated in an investigation under
It is undisputed that the appellant was terminated from the
agency while serving military duty. The appellant argues that
the agency violated 5 C.F.R. § 353.209 because it did not
demonstrate it separated her “for cause.” AF3, Tab 42. I disagree.
The appellant’s termination letter clearly identifies that the
agency separated her for “conduct and unacceptable
performance.” AF3, Tab 11, p. 23. Additionally, as explained
herein, the agency had ample cause to terminate the appellant
during her probationary period. To the extent the appellant
appears to argue that this regulation provides probationary
employees procedural rights similar to 5 U.S.C. § 7503 such as
notice and an opportunity to reply, I am not aware of any such
authority nor has the appellant pointed to any.
2

6a

chapter 43, or (4) exercised a right provided for in
chapter 43. 38 U.S.C. § 4311(b).
Under USERRA, the appellant bears the initial
burden of showing, by a preponderance of the
evidence, that her military status was “a substantial
or motivating factor” in the agency’s action.
Burroughs v. Department of Army, 120 M.S.P.R. 392,
¶ 5 (2013); Erickson v. U.S. Postal Service, 108
M.S.P.R. 494, ¶ 5 (2008). Preponderance of the
evidence is defined by regulation as the degree of
relevant evidence that a reasonable person,
considering the record as a whole, would accept as
sufficient to find that a contested fact is more likely to
be true than untrue. 5 C.F.R. § 1201.4(q). If this
requirement is met, the employer then has the
opportunity to come forward with evidence to show, by
a preponderance of the evidence, that the employer
would have taken the action anyway, for a valid
reason. Sheehan v. Department of Navy, 240 F.3d
1009, 1013–14 (Fed. Cir. 2001); Burroughs, 120
M.S.P.R. 145, ¶ 5. This approach applies regardless of
whether the appellant attempts to prove her case by
direct or circumstantial evidence. Burroughs, 120
M.S.P.R. 145, ¶ 5.
Discriminatory motivation under USERRA may be
established by direct evidence or reasonably inferred
from a variety of factors. See Brasch v. Department of
Transportation, 101 M.S.P.R. 145, ¶ 9 (2006). These
factors include proximity in time between the
employee’s military activity and the challenged
employment action, inconsistencies between the
proffered reason and other actions of the employer, an
employer's expressed hostility towards members
protected by USERRA together with knowledge of the
7a

employee’s military activity, and disparate treatment
of certain employees compared to other employees
with similar work records or offenses. Id.; see also
Sheehan, 240 F.3d at 1013–14; Erickson, 108 M.S.P.R.
at ¶ 5.
In a USERRA case brought under 38 U.S.C. § 4311,
the Board’s jurisdiction does not extend beyond the
complained-of discrimination because of military
status, does not allow for a decision on the merits
of the underlying matter except to the extent
necessary to address the appellant’s military status
discrimination claims, and thus does not include a
review of other claims of prohibited discrimination.
Metzenbaum v. Department of Justice, 89 M.S.P.R.
285, ¶ 15 (2001).
The appellant failed to prove by preponderant
evidence that either anti-military animus or reprisal
for exercising a right protected by chapter 43 was a
motivating factor for any of her claims.
Here, the appellant asserts the following are
evidence of either military animus or retaliation for
taking an action to enforce a protection afforded any
person under 38 U.S.C., chapter 43: 1) that Ms.
Griffin-Hall questioned the appellant’s military
experience and whether she should have been hired as
the HIMS Assistant Chief in the first place; 2) that,
when the appellant requested military leave, Ms.
Griffin-Hall questioned the authenticity of the
appellant’s military orders and delayed in approving
that leave request; 3) that the agency failed to
temporarily promote the appellant to HIMS Chief,
GS-13; 4) that the appellant’s leave was incorrectly
entered causing her to incur a letter of indebtedness;
8a

5) that the agency’s stated reasons for the appellant’s
termination are baseless and, therefore, a pretext for
its discriminatory and retaliatory motives; and 6)
that, on December 20, 2016, Ms. Griffin-Hall only
intended to issue the appellant a written counseling,
but, after Ms. Griffin-Hall discovered that the
appellant had filed a USERRA complaint against her,
she elevated the discipline to a termination. AF3, Tabs
10 & 42. This Initial Decision now addresses each in
turn.
1) Appellant’s Qualifications
The appellant was initially interviewed by a three
member panel which recommended her to be selected
as Assistant HIMS Chief, a GS-12 position. Ms.
Bowman was lead on the panel, and she selected the
appellant because she “nailed” her interview and
because of her leadership experience in the AF.
Hearing Transcript, vol. 3 (HT3), 56:17–21; 62:14–22.
Ms. Griffin-Hall was not on the interview panel. Ms.
Bowman testified that she discussed the appellant
with Ms. Griffin-Hall, that Ms. Griffin-Hall expressed
her concerns that she lacked VA HIMS experience
and about whether the appellant’s
military
experience qualified her to be the Assistant HIMS
Chief, and that Ms. Griffin- Hall opined that the
appellant’s military experience appeared to qualify
her for a different role – that of Health Services
Management, but not the Assistant HIMS Chief. HT3,
58:15–59:7. Despite Ms. Griffin-Hall’s concerns, she
did not deny Ms. Bowman’s selection of the appellant.

9a

The interview panel’s recommendation of the
appellant was forwarded for approval to a professional
standards board (PSB), but the PSB rejected the
appellant’s selection because the appellant lacked
creditable
specialized
experience
in
health
information management at the GS-7 through 11
levels to be considered for the GS-12 assignment. AF3,
Tab 25, p 44. At HIMS’s request, HR Director Tracy
Skala appealed the PSB’s decision to the Bay Pines
VA Director, the Director reversed the PSB’s decision,
and the appellant was appointed as the Assistant
HIMS Chief on October 2, 2016. AF3, Tab 25, pp. 45–
46.
The appellant asserts that Ms. Griffin-Hall’s
concerns about whether the appellant’s military
experience qualified her to be selected as the Assistant
HIMS Chief is evidence of military animus. AF3, Tab
42. For the reasons detailed below, I find that it is not.
First, I find that Ms. Griffin-Hall’s questioning
whether the appellant’s military experience would
adequately translate to her VA HIMS duties to be just
that – a manger’s legitimate concerns that a
prospective employee who has never worked at the VA
or HIMS is qualified to perform the duties of a
supervisory position. Second, I infer from Ms.
Bowman’s testimony that the appellant’s military
experience in her resume was not a model of clarity
regarding how that experience would adequately
translate to the Assistant HIMS Chief’s duties.
Despite this issue, Ms. Bowman testified that
the appellant “nailed” her interview. Given that Ms.
Griffin-Hall did not participate in the appellant’s
interview and only reviewed the appellant’s resume, I
find that Ms. Griffin-Hall’s concerns about the
10a

appellant’s qualifications were legitimate. Third, Ms.
Griffin- Hall did not override Ms. Bowman’s selection
of the appellant. Finally, the PSB, who also did not
interview the appellant, rejected the appellant as
unqualified for the position. Thus, Ms. Griffin-Hall
was not the only agency employee to question the
appellant’s qualifications for the Assistant HIMS
Chief position.
Based on the foregoing, I find that the appellant
failed to prove that military animus motivated Ms.
Griffin-Hall’s concerns as to whether the appellant’s
military experience qualified her to be the Assistant
HIMS Chief.
2) Appellant’s Military Orders
On November 28, 2016, the appellant sought half
a day of military leave (ML) for a physical test she was
ordered to take by the AF on December 15, 2016.
MSPB Docket #AT-4324-17-0315-I-2 (AF2), Tab 6, p.
37.
By December 14, 2016, the appellant’s ML request
had not been approved. Id. On December 14, 2016, the
appellant emailed Ms. Griffin-Hall inquiring about
the status of her ML request. AF2, Tab 6, p. 40. One
minute later, Ms. Griffin-Hall replies, “No problem.
Are you working the other half of the day?” Id.
Ms. Griffin-Hall’s timekeeper for seventeen
employees, Ms. Randelle Niski, testified that Ms.
Griffin-Hall was always “by the book” when it came to
leave requests, that the appellant’s was the first ML
request that she had processed and she wasn’t sure
how to process it, that she sought and received
11a

clarification on the ML leave requesting policy, that
Ms. Griffin-Hall ultimately approved the appellant’s
ML request, and that Ms. Griffin-Hall had delayed
over two weeks in processing leave requests other
than those for military leave because of her busy
schedule. HT1, 56:4–59:22.
Ms. Roxanne Bronner testified that, during a
discussion between Ms. Griffin-Hall, Ms. Niski and
herself, Ms. Griffin-Hall indicated that she was not
inclined to approve the appellant’s military leave
because she questioned the authenticity of the
appellant’s orders as the orders were digitally signed
and Ms. Griffin-Hall was used to seeing a “wet”
signature on military orders. HT3, 97:16–99:19.
Based on the foregoing, I find that the appellant
failed to prove that Ms. Griffin-Hall was motivated by
anti-military animus when she delayed in approving
the appellant’s military for the following reasons.
First, and most importantly, Ms. Griffin-Hall
ultimately approved the appellant’s ML request.
Second, given that it is undisputed that Ms. GriffinHall was used to seeing military orders with a “wet”
or handwritten signature, I find that Ms. GriffinHall’s questioning the order’s authenticity to be just
that – a manager’s legitimate concerns about the
genuineness of the document. Finally, there is no
evidence to even remotely suggest that Ms. GriffinHall harbored any anti-military animus. Indeed, Ms.
Griffin-Hall testified that both her husband and her
brothers are veterans, that she supervises other
employees who take ML, and that her typical response

12a

to requests for ML is, “No problem.” HT1, 202:13–
203:17; 206:10–16.3
3) Failure to Temporarily Promote Appellant to
GS-13
The appellant asserts that, after Ms. Bowman left
on extended leave on November 17, 2016, she was
performing the duties of the HIMS Chief and should
have been compensated at the GS-13 level for her
efforts and that the agency’s failure to do so violated
USERRA. VA policy provides that an employee can be
eligible for a temporary promotion to a vacant position
if the applicant meets the qualifications for the level
and can be boarded by the PSB. AF3, Tab 33, pp. 70–
71. Here, the appellant requested to be compensated
at the GS-13 level on January 25, 2017. AF3, Tabs
34, p. 212 & 31, pp. 133–238. However, I find that the
appellant has failed to provide preponderant evidence
that she was qualified to be the HIMS Chief, GS-13,
since that position requires at least one year of
experience at the GS-12 level, and the appellant had
only been serving at the GS- 12 level at that time for
about 4 months. AF3, Tab 34, p. 204. Therefore, I find

Even if there had been such evidence of anti-military animus, I
would have found that there is no evidence that the appellant
was denied a “benefit of employment” as required by a USERRA
claim because the ML was approved. Timberlake, 76 M.S.P.R. at
177. Additionally, to the extent the appellant complains about
having to fulfill unnecessary requirements, the file contains an
email from Ms. Niski in which she indicates this was the first
time Ms. Niski ever processed military leave and acknowledges
she used outdated VA guidance on this issue. AF2, Tab 6, pp. 35–
37. Therefore, I find that this situation does not evidence antimilitary animus.

3

13a

that the appellant failed to prove the agency’s failure
to temporarily promote her violated USERRA.
4) Letter of Indebtedness
The appellant asserts that the agency
intentionally inputted her as present for duty while
she was performing military service which resulted in
a letter of indebtedness. It is unclear from the record
how the appellant’s time was listed as being present
for duty when it is undisputed she was on ML. It is
also undisputed that the appellant was actually paid
by the VA for this erroneously entered time.
Therefore, I find that the appellant failed to prove that
this error – however it was made and whoever made
it – was motivated by an action that violates
USERRA.4
5) Appellant’s Termination
The appellant disputes the misconduct upon which
Ms.
Griffin-Hall
based
her
termination
recommendation to the HR Chief. AF3, Tab 32, pp.
87–179 (termination package). On July 18, 2017, the
HR Chief terminated the appellant, effective July 24,
2017. AF3, Tab 32, p. 90. The termination package
includes a memorandum issued by Ms. Griffin-Hall
dated December 20, 2016 to the HR Chief requesting
the appellant’s termination during her probationary
Even if there had been such evidence, I would have found that
there is no evidence that the appellant was denied a “benefit of
employment” as required by a USERRA claim because the
appellant was paid for this time by both the military and the VA,
and she cannot be paid simultaneously for both civilian and
military service. Timberlake, 76 M.S.P.R. at 177.
4

14a

period for failure to follow instructions, unauthorized
release of medical information, and conduct
unbecoming. AF3, Tab 32, p. 94.
i. Improper Release of Medical Information to the
Union
One of the appellant’s alleged unauthorized
releases of medical information involves an email
from the appellant to her subordinate’s union
informing the union of a change in the subordinate’s
tour of duty. Id. at p. 98. Initially, Ms. Griffin-Hall
took issue with the fact that the appellant’s email was
in the incorrect format for a notification to the union
(NTU), that she instructed the appellant to recall the
email, and that the appellant had failed to do so. Id.
at p. 98. The appellant admits that she did not recall
the email as instructed. HT1, 85:4–86:9.
The NTU email includes the bargaining unit
member’s medical treatment plan, treatment location,
and treatment schedule – all of which the agency
asserts violate the VA’s privacy policy because the
union had no need to know such information. Id. at p.
97. For the reasons detailed below, I find that the
appellant failed to demonstrate that either antimilitary animus or USERRA reprisal motived this
charged conduct.
First, it is undisputed that the appellant did not,
in fact, recall the email. Therefore, I find that the
appellant failed to follow her supervisor’s instruction.5
The appellant argues that the union did not reject the NTU, and
the appellant, therefore, was not obligated to recall the NTU.
This argument ignores the fact that Ms. Griffin-Hall is the
appellant’s supervisor, not the union.
5

15a

Second, while it is undisputed that the union was
entitled to notice of a change in a bargaining unit
member’s tour of duty, there is no reasoned basis that
the union also needed to know the bargaining unit
member’s medical information causing that change to
his tour. The VA’s privacy policy instructs:
All individuals who have access to sensitive
information are responsible for protecting an
individual’s right to privacy and ensuring proper use
and disclosure
of
information. All
workforce
members will be held accountable for compliance
with these policies, procedures, and applicable laws.
AF3, Tab 11, p. 98. That policy also references
consulting VHA Directive 1605.01. Id. That Directive
requires written authorization for release of medical
information where the recipient lacks a need to know
that information. VHA Directive 1601.01, “Privacy &
Release of Information,” p. 39.
Here, the appellant does not argue that her
subordinate’s medical information should not have
been protected. Rather, the appellant asserts that the
union routinely receives this type of information, and,
therefore, there was no breach of the VA’s privacy
policy. AF3, Tab 42. I am unpersuaded. Given that
there is no evidence that this employee authorized the
appellant to release the medical information to the
union and that the union had no need to know this
medical information, I find that the appellant violated
the VA’s privacy policy by releasing that information
to the union.

16a

Based on the foregoing, I find that the appellant
failed to prove that this accusation was motivated by
anti-military animus or by USERRA retaliation.
This is especially true given that the appellant, as the
Assistant HIMS Chief, was responsible for
supervising the Bay Pines VA’s release of information
office and that this improper release of information
directly relates to her supervisory duties.6
ii. Appellant’s
Request

Compensatory

(Comp)

Time

The second instance in the termination package
involves the appellant’s February 15, 2017 comp time
request for 0.5 hours. AF3, Tab 32, pp. 100–03. After
making this request, the appellant received a message
stating, “Supervisor approved but pending Director
Approval.” Id. In response, the appellant contacted
her timekeeper, Ms. Niski, and copied the union,
asking, “can you explain to me why I am waiting on
[the Director] to approve my comp time? Is someone
trying to disapprove my comp time?” Id. Ms. Niski
responded, copying Ms. Griffin-Hall, “All OT/CT
requires second-line approval. Any further questions
can be directed to your supervisor and/or Payroll.” Id.
Three minutes later, the appellant replies:
I was asking you as my timekeeper. My
supervisor didn’t make the notation in the
system, which is why I directed the question
For a tenured VA employee, the VA’s penalty range for a first
offense of failing to safeguard a confidential matter is
admonishment to removal. AF3, Tab 11, p. 87. For a tenured VA
employee, the VA’s penalty range for a first offense of deliberate
refusal to carry out any proper supervisory order is
admonishment to removal. AF3, Tab 11, p. 88.
6

17a

to you. And since [Ms. Griffin-Hall] is not a
“Director”, and didn’t make the note in the
system, that is why the question went to
you. My second-line approver is not the
“Director”. If you made a mistake, that is
all you had to say. Either way, I am still
waiting on my comp time to be approved and
am noting this for my added records.
Id. Ms. Niski responded, inter alia, that she was
offended and told the appellant she wanted her to stop
vilifying her. Id. The appellant replied, inter alia, “At
no time did I downplay or insult your actions, other
than asked you to admit a mistake, which I believe
was a reasonable request.” Id. For the reasons
detailed below, I find that the appellant failed to
demonstrate that either anti-military animus or
USERRA reprisal motived this charged conduct.
First, I find that the email exchange above is
conduct unbecoming a supervisor. There was simply
no need for the appellant to publically accuse anyone
of attempting to disapprove her comp time request or
to accuse Ms. Niski of making a mistake. Second, in
her final email, the appellant herself admits that she
publically disparaged, albeit “reasonably” so, Ms.
Niski in front Ms. Griffin- Hall, who supervises both
of them, and the union.7 Finally, this dispute arose
over a comp time request for a mere 0.5 hours, and I
find that the appellant employed exceedingly poor

It is also unclear why the appellant would copy the union as she
is a supervisor and not a bargaining unit member. When asked
at hearing as to why she would do this, she replied, “Could have
been a slip of the key.” HT1, 107:15–20.

7

18a

judgment in escalating the issue in the manner in
which she did over such a trivial matter.
iii. Training
The third instance in the termination package
involves training events/courses on 12 subjects that
the appellant, who was new to both her position and
the VA, was supposed to take but did not. AF3, Tab
32, pp. 105–16. Ms. Griffin-Hall provided the
appellant with a list of subject areas for training,
including, at least for most of the trainings, a point of
contact to schedule the training. Id. On February 17,
2017, Ms. Griffin-Hall asked the appellant about the
status of one of the training events, and the appellant
responded, “I attended [two of the trainings].
Everything else was cancelled due to conflicting
schedules and were not rescheduled.” Id. At hearing,
the appellant was asked, “[W]hat was your
responsibility to take training that your supervisor
told you to take?” HT1, 77:3–5. The appellant
responded, “I let her know that it was cancelled, and I
was waiting for [Ms. Griffin-Hall] to reschedule them.
I don’t know who they talked to, to set up the
scheduling.” Id. at 6–9. The appellant also testified
that Ms. Niski and others were responsible for
scheduling the trainings. HT1, 76–78. For the reasons
detailed below, I find that the appellant failed to
demonstrate that either anti-military animus or
USERRA reprisal motived this accusation.
First, it is undisputed that the appellant did not
take all but 2 of the 12 trainings she was supposed to.
Second, I find that, when a required training is
postponed, it is entirely reasonable for a supervisor to
expect a subordinate, who is also a supervisor, to
19a

endeavor on her own accord to reschedule the required
training. That the appellant failed to do so and blames
others for her dereliction does not evidence antimilitary animus, it evidences irresponsibility and
apathy towards both the agency’s training regimen
and her new role as the Assistant HIMS Chief.
iv. CDI Interviews
The fourth instance in the termination package
involves interviews for the HIMS positions of Clinical
Documentation Improvement specialists (CDI). Ms.
Griffin-Hall, who was the selecting official for the CDI
positions, testified that she told the appellant to
include Ms. Jacki Crews as a subject matter expert on
the second round of interview panels for the CDI
positions, and that she told the appellant to not
include Ms. Roxanne Bronner on these CDI interview
panels because she was not a subject matter expert,
HT1, 239:17–243:14; see also AF3, Tab 11, pp. 37–38
(appellant’s email responding to Ms. Crews, “I do not
see the justification for you to know who is on the
panel, since these positions would not report to you,
they would report to me….”). Ms. Griffin-Hall stated
that the appellant did not comply with this direction
about Ms. Bronner. Id. Ms. Griffin- Hall further
testified that she viewed the appellant’s failure to
include Ms. Crews on the first round of interviews as
lacking good judgment since Ms. Crews was the
subject matter expert and Ms. Bronner was not, and
since Ms. Crews input should be valued as she would
be working closely with the CDIs. Id. For the reasons
detailed below, I find that the appellant failed to
demonstrate that either anti-military animus or
USERRA reprisal motived this accusation.
20a

First, the appellant has not disputed that Ms.
Bronner lacked subject matter expertise in this area
or that Ms. Bronner was included on the first round of
interviews. I find that this action both violates Ms.
Griffin-Hall’s direction regarding Ms. Bronner and
evidences poor judgment by the appellant since Ms.
Bronner lacked subject matter expertise. Second, I
find the appellant’s tone in her email denying Ms.
Crews even the identity of the interview panel is not
conducive to team building. As it is undisputed that
Ms. Crews would be working closely with the CDIs,
the appellant should have been more inclusive in her
approach to this situation.
v. December 13, 2016 ROI Huddle
The fifth instance in the termination package
involves a telephonic conference call between the
appellant, Ms. Griffin-Hall, and members of the
request for information (ROI) staff during which Ms.
Griffin-Hall asserts the appellant had an
unprofessional and disrespectful tone. Ms. GriffinHall attributes the following statements to the
appellant:
• “I am the HIMS Manager!”
• “No! That is not true. All paper documents are
not properly labeled for the MR staff to identify.”
• “As long as I complete the task you have
assigned me, why should it matter to you if I turn the
charts?”
AF3, Tab 32, p. 127 (Report of Contact (ROC)). Ms.
Griffin-Hall contacted the appellant after this
21a

teleconference to discuss her concerns, and the
appellant responded that these concerns were her
“perception” and that she had two witnesses that may
have a different perception. Id. Ms. Griffin-Hall
testified that her decision to request the appellant’s
termination during her probationary period occurred
immediately subsequent to this meeting.
HT1,
290:24–291:8.
Ms. Shaw-Hillman testified that she was on the
line for this teleconference, that the appellant’s
responses to Ms. Griffin-Hall’s questions about the
ROI issues were “pretty aggressive…abrasive,” that
the appellant had stated to Ms. Griffin-Hall, “what
does it matter;” that the appellant’s demeanor
signaled to Ms. Griffin-Hall, “you do your job, and I’ll
do my job,” that the appellant took a tone with Ms.
Griffin-Hall that “I personally would not have taken;”
and that the appellant’s conduct during this
teleconference in front of their subordinates was
“completely uncalled for.” HT2, 31:14–35:8.
The appellant testified that, during this meeting,
Ms. Griffin-Hall instructed her not to get involved
with helping her staff process these actions (turning
the charts) and that she disagreed with Ms. GriffinHall’s instruction. HT1, 97:21–101:9. The appellant
testified that she told Ms. Griffin-Hall that the
medical records scanners did not know how to turn
charts, and that, to prove her point, she asked a
medical records scanner to perform this task in front
of the huddle but she could not. Id. at pp. 101:10–
103:7. The appellant further testified that Ms. GriffinHall’s ROC attributed statements to her that were
actually said by others. Id. The appellant stated that
the disagreements with Ms. Griffin-Hall were “started
22a

by” Ms. Griffin-Hall. Id. at 106:3–8. The appellant
specifically denied making the statement: “As long as
I complete the task you have assigned me, why should
it matter to you if I turn the charts?” Id. at pp. 101:6–
9.
Based on the foregoing conflicting testimony, a
credibility determination is necessary. To resolve
credibility issues, an administrative judge must
identify the factual questions in dispute, summarize
the evidence on each disputed question, state which
version he believes, and explain in detail why he found
the chosen version more credible, considering such
factors as: (1) the witness's opportunity and capacity
to observe the event or act in question; (2) the
witness's character; (3) any prior inconsistent
statement by the witness; (4) a witness's bias, or lack
of bias; (5) the contradiction of the witness's version of
events by other evidence or its consistency with other
evidence; (6) the inherent improbability of the
witness's version of events; and (7) the witness's
demeanor. Hillen v. Department of Army, 35 M.S.P.R.
453, 458 (1987).
Here, for the reasons detailed below, I find that the
appellant did make the statement “As long as I
complete the task you have assigned me, why should
it matter to you if I turn the charts?” First, having
observed the appellant’s demeanor at hearing, I find
much of her testimony to be evasive. Second, having
observed Ms. Griffin-Hall’s testimony at hearing, I
find her testimony to be clear, straight-forward, and
direct. I also credit Ms. Shaw-Hillman’s testimony
who heard the appellant say, “What does it matter,”
which forms a significant part of the disputed
statement. Finally, given the nature of the dispute
23a

occurring between the appellant and Ms. Griffin-Hall,
I find that this statement is entirely consistent with
that dispute since the appellant herself admits Ms.
Griffin-Hall’s instruction to her was to refrain from
processing these actions. I also find that this
statement’s tone is consistent with the combative tone
of the appellant’s written correspondence. Therefore,
I find that the appellant did say to Ms. Griffin-Hall,
“As long as I complete the task you have assigned me,
why should it matter to you if I turn the charts?”8
Additionally, the appellant did not specifically
deny making the other statements attributed to her
by Ms. Griffin-Hall’s ROC. Based on that fact, as well
as the credible testimony of Ms. Griffin and Ms. ShawHillman, I find that the appellant made the
statements in the ROC. I further find that these
statements are disrespectful to one’s second-level
supervisor – especially in front of one’s subordinates.
Consequently, I find that the appellant failed to

The appellant asserts that Ms. Rosa Sly testified that
statements Ms. Griffin-Hall attributed to the appellant during
this huddle were actually uttered by Ms. Marilyn Jackson. AF3,
Tab 42, p. 9. What Ms. Sly actually testified was that the “only”
thing the appellant stated to Ms. Griffin-Hall during this huddle
was about how the ROI staff was not trained to turn charts. HT3,
42:3–16. Given that the appellant herself admits disputing Ms.
Griffin-Hall’s instruction to not be involved in processing these
actions and using one of the ROI staff to prove her point, I do not
credit Ms. Sly’s testimony. Hillen, 35 M.S.P.R. at 458. Moreover,
it was the appellant that was disputing Ms. Griffin-Hall’s
instruction not to be involved with the processing of these
actions, so it would be illogical for Ms. Jackson, for whom there
is no evidence that she was disputing this instruction, to have
uttered this statement.
8

24a

demonstrate that either anti-military animus or
USERRA reprisal motived these accusations.
vi. Improper Release of Medical Information to
Congressional Office
The sixth instance in the termination package
involves the accusation that the appellant improperly
approved the release of a veteran’s medical records to
a Congressional Office. AF3, Tab 32, p. 129–30. On or
about November 16, 2016, Ms. Griffin-Hall took issue
with the fact that the request for the information came
from the veteran’s Congressional Office’s form, not on
the VA’s ROI request form, that, as such, this thirdparty request form should not have been fulfilled, and
that its fulfillment violated the VA’s privacy policy.
Id. Ms. Griffin-Hall testified that the HIPPA form
signed by the veteran authorized ROI to discuss the
veteran’s medical information with the Congressional
Office, but not to release the medical records, that she
had vetted her position with the VA’s privacy office
before discussing it with the appellant, that the VA’s
privacy office agreed that it was inappropriate for ROI
to release the veteran’s medical documentation to the
Congressional Office, that she relayed her concerns to
the appellant, but the appellant insisted that she was
correct in approving their release and she told Ms.
Griffin-Hall that she was wrong. HT1, 223:13–227:10.
Ms. Griffin-Hall also stated that there was a policy
in place for responding to Congressional Inquiries,
that the Director’s Office should have responded, that
it was inappropriate for HIMS to directly respond to a
Congressional Inquiry, and that, in response, the
appellant asserted that she did not know about that
policy. Id. at 227:11–229:4.
25a

The appellant asserts that she did approve the
release of information, but that her approval did not
violate the VA’s policy. AF3, Tab 42. After Ms. GriffinHall had instructed those involved not to accept thirdparty forms, the appellant told her subordinate who
had released the information that she disagreed
with Ms. Griffin-Hall on this policy. HT1, 88:13–
96:11.
Based on the foregoing, I find that the appellant
failed to carry her USERRA burden for the following
reasons. First, I am convinced that Ms. Griffin-Hall’s
interpretation of the situation is correct – that the
release of the medical documentation was improper.
This is especially true given that Ms. Griffin-Hall
unequivocally testified that she vetted her position
with the VA’s privacy office. Second, the appellant’s
failure to follow the VA’s policy on responding to
Congressional Inquires is not excused by the fact that
she was unaware of the policy. This is true because
the appellant is a supervisor, a higher-level employee,
and she is instructing a rank and file employee to
respond to a Member of Congress. Given the high level
of the inquiry, this situation should have triggered
in the appellant a need to seek guidance, as she had
clearly not dealt with a Congressional Inquiry at the
VA before.
That she did not seek such guidance
before acting further evidences her own poor
judgement, not anti- military animus.
vii. Failure to Follow
Delegation of Authority

Instruction

Regarding

The final instance in the termination package
involves an instruction from Ms. Griffin-Hall to the
appellant to not interface directly with her second26a

level subordinates. AF3, Tab 32, pp. 132–39; HT1
210:24–216:19. Ms. Griffin-Hall testified that she told
the appellant that she wanted the appellant’s firstline subordinate, Ms. Sly, to directly interface with
front-line employees, the appellant’s second-level
subordinates, during a huddle. Id. Ms. Griffin-Hall
testified that the appellant disregarded her
instruction and engaged with second- level
subordinates during the huddle immediately
following this instruction. Id. The appellant has not
presented evidence that disputes Ms. Griffin-Hall’s
assertion in this regard.
Based on the foregoing, I find that the appellant
failed to follow her supervisor’s instruction and that
there was nothing improper about the instruction. I
correspondingly find that the appellant failed to carry
her USERRA burden on this issue.
In sum, I find the appellant failed to prove that any
instance in the termination package ran afoul of
USERRA.
6) Timing of Decision to Terminate Appellant
The appellant asserts that Ms. Griffin-Hall
initially sought to merely reprimand her, but, after
finding out that the appellant had filed a USERRA
complaint against her, she elevated the discipline to a
termination. The threshold question in this inquiry is
what triggers USERRA’s antiretaliatory provisions.
USERRA prohibits retaliation for taking “an
action to enforce a protection afforded any person
under 38 U.S.C. chapter 43….” 38
U.S.C.
§
4311(b)(1). Here, the appellant filed a hostile work
27a

environment (HWE) complaint against Ms. GriffinHall asserting, inter alia, that her delay in approving
the appellant’s ML request discussed above created a
hostile work environment. AF3, Tab 34, pp. 262–63.
Because military leave is a protection under
USERRA, since the appellant’s HWE complaint was
“an action” aimed at enforcing that protection, and as
Congress elected not to limit “an action” by any
modifier, I find that this action triggers USERRA’s
antiretaliatory protections. 38 U.S.C. §§ 4311(b)(1),
4316 (providing that members of the uniformed
service shall be granted leave while performing such
service). The next question is when Ms. Griffin-Hall
became aware of the appellant’s HWE complaint.
The complaint was assigned to Ms. Kris Brown,
Associate Director for the Bay Pines VA, for
investigation, and the file contains memorandum of
an undated interview between the appellant and Ms.
Brown in which the appellant references the ML
issue. Id. at pp. 265–67. Ms. Brown testified that she
met with Ms. Griffin-Hall on December 20, 2016 at
3:30 to discuss the HWE complaint with her. HT2,
163:13–19; AF3, Tab 33, p. 73. During that
conversation, Ms. Brown made Ms. Griffin-Hall aware
of the appellant’s concerns about Ms. Griffin-Hall’s
delay in approving the appellant’s ML.9 HT2, 167;
On December 14, 2016, the appellant also filed a complaint with
the Department of Labor, Veterans’ Employment & Training
Service (DOL VETS) regarding the agency’s delay in approving
her military leave detailed above. AF2, Tab 6, pp. 50–54. On
December 27, 2016, DOL VETS contacted Bay Pines Associate
Director Ms. Kristine Brown to advise her of the USERRA
complaint filed by the appellant. AF2, Tab 6, p.55. Because Ms.
Brown was already aware of the appellant’s allegations from the
9

28a

AF3, Tab 39, p. 4. Therefore, I find that Ms. GriffinHall was aware that the appellant was enforcing a
right under USERRA as of December 20, 2016 at
approximately 3:30 PM.10
Ms. Griffin-Hall’s email transmitting the
memorandum entitled “Written Counseling for
probationary employee,” to Ms. Savage, the HR
specialist assisting her, is date stamped December 20,
2016 at 10:42 a.m. AF3, Tab 40, p.7. Ms. Griffin-Hall’s
affidavit asserts that, after consulting with HR about
the appellant’s situation, she received a template for
a written counseling from HR. Id. at p. 4. Ms. GriffinHall’s affidavit further asserts that, while the
December 20, 2016 exhibit sent to HR on December
20, 2016 at 10:43 AM is entitled “Written Counseling,”
she actually intended it to be a request for the
appellant’s termination. Id. The appellant argues that
this is documentary evidence that, as of the morning
of December 20, 2016, Ms. Griffin-Hall only intended
to reprimand the appellant, and that, after learning of
the appellant’s HWE complaint, she retaliated
against the appellant by increasing the reprimand to
a termination. AF3, Tab 42. For the reasons detailed
below, I find that Ms. Griffin-Hall had made up her
mind to terminate the appellant prior to learning of
the WHE complaint.

HWE complaint, it does not appear that Ms. Brown brought the
USERRA complaint to Ms. Griffin-Hall’s attention.
10
To the extent the appellant asserts that Ms. Griffin-Hall
“knew” of the appellant’s HWE or USERRA complaint on
December 14, 2016, there is simply no evidence to support this
claim.

29a

First, Ms. Griffin-Hall testified unequivocally that
she decided to terminate the appellant during her
probationary period after the December 13, 2016
meeting detailed above, that the appellant had been
“abrasive” and “insistent” of her way during this
meeting, that this meeting was “the last straw,” and
that she had been consulting with HR since that
December 13, 2016 incident. HT1, 232:11–15; 290:24–
291:8. I find that, based on the nature of the
appellant’s misconduct and disrespect towards her
supervisor during this meeting, this is precisely the
type of interchange that would motivate a supervisor
to make a decision to terminate a probationer. Indeed,
the appellant herself testified that, in the interchange
between herself and Ms. Griffin-Hall following this
huddle, Ms. Griffin-Hall went on a “rant”. HT1,
104:18–105:19. Therefore, I credit Ms. Griffin-Hall’s
testimony that she made her decision to terminate the
appellant after this December 13, 2016 incident. Since
this interchange and corresponding decision predated
Ms. Griffin-Hall’s awareness of the HWE complaint, it
could not have influenced her decision to terminate
the appellant.
Second, there is no testimony from Ms. Taryn
Savage that Ms. Griffin-Hall first sought to reprimand
the appellant but, at some point after December 20,
2016, elevated the level of discipline to a
termination.11 Ms. Savage, HR Employee Labor
While I acknowledge that the evidence of the email from Ms.
Griffin-Hall to Ms. Savage at issue was not produced until after
Ms. Savage testified, the appellant did not request to recall Ms.
Savage on this issue. As the appellant has the initial burden in
this USERRA appeal, I find that, if she had desired to explore
this issue with Ms. Savage, it was incumbent upon her to do so.
See 5 C.F.R. § 1201.59(c)(2).
11

30a

Relations Specialist, testified that, approximately six
weeks after the appellant’s appointment, Ms. GriffinHall contacted her with concerns about the appellant’s
inappropriate communications; that she advised Ms.
Griffin- Hall to terminate her during her probationary
period; and that Ms. Griffin-Hall declined and opted
to give the appellant a chance to improve through
guidance and coaching. HT2, 77:22–79:19; AF3, Tab
11, p. 60–61 (November 17, 2016 memo “Concerns
about Communication”). Ms. Savage testified that,
after this initial conversation, she researched whether
the appellant was, in fact, a probationary employee
due to prior service with the Federal Bureau of
Investigation, and that the reason she was performing
this research was she believed the appellant would be
terminated during her probationary period. HT2,
80:9–15. Ms. Savage explained that the reason for the
delay between Ms. Griffin-Hall’s December 20, 2016
request for termination and the HR Chief’s July 18,
2017 termination letter was because her office had
only two HR specialists for disciplinary and leave
issues servicing 4300 employees, that it was very early
in the appellant’s probationary period, and that more
urgent disciplinary matters involving weapons,
threats, and drugs took priority. HT2, 85:19–86:15.
Based on the foregoing, I find that none of Ms.
Savage’s testimony corroborates the appellant’s
assertions, but is consistent with Mr. Griffin-Hall’s
assertion.
Third, the record contains Ms. Griffin-Hall’s
request to the HR Chief that the appellant be
terminated during her probationary period. AF3, Tab
32, p. 94. That request is dated December 20, 2016,
31a

and there is no evidence that it was actually provided
to HR after that date.
Finally, a December 16, 2016 email from Ms.
Susanna Hernandez, Senior HR Specialist, to her
supervisor indicates that Ms. Griffin-Hall was, on
December 15, 2016, inquiring about whether the
appellant was serving as a probationary employee.
AF3, Tab 31, pp. 129–30. This evidence is highly
relevant because, had Ms. Griffin-Hall actually been
contemplating a reprimand, there simply would be no
need to determine whether the appellant was
probationary because the answer to that question has
no meaningful legal implications – both probationary
and tenured employees have no direct appeal rights
to the Board over a reprimand. 5 U.S.C. § 7512.
Based on the foregoing, I credit Ms. Griffin-Hall’s
explanation that, despite the language in the
December 20, 2016 email, she intended the action
against the appellant to be a termination and not a
reprimand.
Finally, there is also no evidence that others
similarly situated to the appellant, but who did not
file USERRA complaints, were not terminated during
their probationary period. I also note that the
termination package contains multiple infractions
and the agency’s table of penalties for one of these
infractions for a tenured employee is as high as
removal. Consequently, I find that the appellant failed
to prove by preponderant evidence that Ms. GriffinHall’s recommendation to terminate her during her
probationary period violated USERRA.

32a

Therefore, I conclude that the appellant has failed
to establish that she is entitled to corrective action
under USERRA.

DECISION

The appellant’s request for corrective action under
USERRA is DENIED.

FOR THE BOARD:
___/s/_________________
Christopher G. Sprague
Administrative Judge

33a

IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
No. 2018-2100
DEVONA HOLLINGSWORTH,
Petitioner,
versus
DEPARTMENT OF VETERANS AFFAIRS,
Respondent.

Petition for Review of
the Merit Systems Protection Board in Nos.
AT-4324-17-0315-I-2, AT-4324-18-0091-I-1
[Filed: August 5, 2019]
ON PETITION FOR REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
LINN*, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO, CHEN, HUGHES, and
STOLL, Circuit judges
PER CURIAM.
*Circuit Judge Linn participated only in the
decision on the petition for panel rehearing.
34a

ORDER
Petitioner Devona Hollingsworth filed a combined
petition for panel rehearing and rehearing en banc.
The petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on August 12,
2019.

FOR THE COURT

August 5, 2019
Date

/s;/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

35a

